Pension Benefit Guaranty Corporation

      Office of Inspector General
            Audit Report




   Review of Sensitive Payments
         Fiscal Year 1998




             June 7, 1999
                                    99-4/23136
                                      Review of Sensitive Payments
                                            Fiscal Year 1998

                                          Audit Report 99-4/23136

                                                     CONTENTS

                                                                                                                                Page

EXECUTIVE SUMMARY.............................................................................................                   i

INTRODUCTION.........................................................................................................            1

OBJECTIVES..............................................................................................................         1

SCOPE........................................................................................................................    1

BACKGROUND AND METHODOLOGY .....................................................................                                 2

FINDINGS AND RECOMMENDATIONS.....................................................................                                3



                                                           TAB

TAB 1                             Management Response


                                                 ABBREVIATIONS

CFR                               Code of Federal Regulations
FY                                Fiscal Year
GAO                               General Accounting Office
Guide                             Guide for Evaluating and Testing Controls Over Sensitive
                                   Payments
PBGC                              Pension Benefit Guaranty Corporation
                            Review of Sensitive Payments

                               Audit Report 99-4/23136

                                EXECUTIVE SUMMARY

        The Pension Benefit Guaranty Corporation’s (“PBGC”) senior level officials are
vested with the public trust and hold positions with decision-making authority. In
those positions, the employees may face intense scrutiny of their actions. Sensitive
payments encompass a wide range of executive functions including compensation,
travel, official entertainment funds, unvouchered expenditures, consulting services,
speaking honoraria and gifts, and perquisites.

FINDINGS AND RECOMMENDATIONS

1. Travel Vouchers Not Submitted Timely.

       Travel vouchers were not submitted within 10 days of completion of the travel.
PBGC Directive GA 10-5 establishes the travel procedures applicable to all PBGC
employees. Our review disclosed that the controls were not operating as designed. We
found that these problems which were identified in prior audits continue to exist.

                                 RECOMMENDATIONS

       We continue to recommend that PBGC implement the following corrective
actions:

       Require senior level officials to comply with the PBGC directive regarding
       timely submission of travel vouchers. (FOD-270)

       Direct the Payroll/Travel Office to comply with policies and procedures
       regarding delinquent travel vouchers. (FOD-271)

       Review open travel authorizations regularly to ensure timely
       submission of travel vouchers. (FOD-272)


MANAGEMENT RESPONSE AND OIG EVALUATION

      A draft report was provided to the Agency for comment. PBGC officials generally
concurred with the findings and recommendations (see TAB 1).




                                             i
                             Review of Sensitive Payments

                               Audit Report 99-4/23136

INTRODUCTION

        The Pension Benefit Guaranty Corporation’s (PBGC) senior level officials are
vested with the public trust and hold positions with decision-making authority. In
those positions, the employees may face intense scrutiny of their actions. Sensitive
payments encompass a wide range of executive functions including compensation,
travel, official entertainment funds, unvouchered expenditures, consulting services,
speaking honoraria and gifts, and perquisites. Sensitive payment issues are addressed
in various laws, regulations, policies and procedures, and codes of ethics and conduct
for government employees.

OBJECTIVES

        We conducted an audit of Fiscal Year (FY) 1998 sensitive payments for certain
PBGC senior level officials. Our audit covered sensitive payments made during the
period October 1, 1997 through September 30, 1998. To accomplish this audit, the
following objectives were completed:

        1. Evaluate the effectiveness of the management control structure over the areas
           of sensitive payments which encompass the following items:
           (a) compensation, (b) travel, (c) official entertainment funds, (d) unvouchered
           expenditures, (e) contracting and consulting services, (f) speaking honoraria
           and gifts, (g) executive perquisites, and (h) code of ethics criteria.

        2. Evaluate compliance with applicable laws, regulations, policies and
           procedures, and the codes of ethics and conduct.

SCOPE

        Our scope was the universe of senior level officials who were filling the positions
of Executive Director, Deputy Executive Directors, and other senior level officials. Our
testing covered the areas identified by the United States General Accounting Office
(GAO) in its publication, Guide for Evaluating and Testing Controls Over Sensitive
Payments (revised May, 1993). For compliance criteria, we identified and reviewed the
following federal laws, regulations and Corporate policy and procedures:

        •   41 C.F.R. Chapters 301-304, Federal Travel Regulation System

        •   5 C.F.R. Part 2635, Standards of Ethical Conduct for Employees of the
            Executive Branch

        •   Directive FM 05-6, The PBGC Imprest Fund

        •   Directive FM 15-1, PBGC Systems for the Requisition of, Acquisition of and
            Payment for Goods and Services

        •   Directive GA 05-5, The PBGC Delegation of Authority System

        •   Directive GA 10-5, PBGC Travel Policies and Positions

        •   Directive GA 10-6, PBGC Sponsored Meetings and Conferences




                                             1
         •   Directive IM 10-4, Speaking Engagements and Public Meetings

         •   Directive PM 20-6, Senior Level Executive Program

       This audit was performed in conformance with government auditing standards
and included such tests of compliance with applicable federal laws, regulations, and
PBGC Directives as we deemed necessary. We discussed our conclusions developed in
this audit with PBGC officials.

        We judgmentally selected our sample of senior level officials based upon our
review of the organizational staffing pattern and the obligation balance report for the
fiscal period ending September 30, 1998.

BACKGROUND AND METHODOLOGY

        In May, 1993, the GAO issued a Guide for Evaluating and Testing Controls Over
Sensitive Payments (Guide). The Guide describes procedures for review of the internal
control structure over sensitive payments, conflicts of interest, associated ethics
matters, and a determination as to whether those controls ensure compliance by senior
government officials with major laws, established regulations, and policies and
procedures. The guide suggests that this review be performed as part of the audit of the
financial statements. Audit testing was specifically tailored to the sensitive pay issues
identified by GAO’s Guide.

Compensation

       We requested FY 1998 payroll data for the selected senior level officials. We
obtained the Earnings History Records from the payroll system and compared pay rates
and other compensation to that established by Corporate Directive PM 20-6.

Travel

        We obtained the travel vouchers for the selected senior level officials. We verified
the completeness of the travel vouchers provided our office by tracing paid vouchers to
the Financial Accounting Reporting System. We recalculated the voucher
reimbursements to ensure compliance with the Federal Travel Regulations and PBGC
Directive GA 10-5. We reviewed the vouchers to ensure proper approvals and
appropriate supporting documentation was included in the voucher package.

Contracting and Consulting Services

        We obtained the public financial disclosure forms (SF-278s) for the selected
senior level officials. We reviewed the financial disclosure forms to determine if any
potential conflicts of interest could arise from procurement activities with firms in
which the senior level officials have a financial interest.

Official Entertainment Funds and Unvouchered Expenditures

       These funds are established by law for specific purposes. Previous audits have
found these type funds are not established for PBGC.

Speaking Honoraria and Gifts

        We obtained the reports filed by the Corporation with the Office of Government
Ethics for FY 1998 detailing reimbursement of travel from sources outside the Federal
Government. We reviewed the information provided by these reports and traced all
items to appropriate supporting travel documentation.




                                             2
Executive Perquisites

      We obtained the logs for official use of the government vehicle maintained by
PBGC. We reviewed the logs to ensure that use of the vehicle was in accordance with
Government regulations and PBGC policy.

Code of Ethics

        We interviewed the Alternate Agency Ethics Official who explained PBGC’s
policies and procedures for informing its employees of their responsibilities regarding
the code of ethics. We obtained the public financial disclosure forms (SF-278s) of the
employees that were subject to the audit. We also obtained the related ethics
information that PBGC provides to all employees.

       During the course of our audit, nothing came to our attention which indicated
that we should include other areas for audit testing or examination under the sensitive
payment criteria.

FINDINGS AND RECOMMENDATIONS

1. Travel Vouchers Not Submitted Timely.

     Travel vouchers were not submitted within 10 days of completion of the travel.
PBGC Directive GA 10-5, section 10-c, states that:

       Travel Voucher (SF 1012). This form is the official means to claim a
       reimbursement and shall be prepared, signed, and delivered to the
       Payroll/Travel Office by the tenth working day after the completion of the
       travel.

In addition, the Controller Division Consolidated Procedures Manual (Manual), section
III.42.1(j), states that:

         The Payroll/Travel Office regularly reviews open travel authorizations to
       ensure timely submission of travel vouchers.

                 •   A first notice of an outstanding travel voucher is sent to the
                     employee by the tenth working day after the completion of the
                     travel (as indicated on the Travel Authorization) and a copy of
                     the notice is filed with the employee’s Travel Authorization.

                 •   A second notice of an outstanding travel voucher is sent to the
                     employee if not received within 20 days after the completion
                     of travel.

                 •   Additionally, the Travel Accounting Supervisor will contact
                     the Department Director(s), Executive Department Director(s)
                     and/or their secretaries to obtain their delinquent vouchers
                     which exceed 20 days from the completion date of travel.
                     After 5 additional working days from this contact by the
                     Travel Accounting Supervisor, notification will be given to the
                     Controller if the travel voucher remains outstanding.




                                               3
                •   If after the Controller’s notice or contact is made with the
                    Director(s) and the travel voucher is still not received within 3
                    days, notification will be given to the next level up: Deputy
                    Executive Director will be notified for a Director’s delinquent
                    travel voucher and the Executive Director will be notified for a
                    Deputy Executive Director’ delinquent travel voucher.

        We reviewed the travel vouchers for our sample of senior level officials. Based
upon our review, we found that 27% (25 out of 90) of the travel vouchers were not
submitted by the tenth working day after the completion of the travel. Of these 25
tardy travel vouchers, we found one was more than 30 days late, four were 20 or more
days late, four were between 12 to 19 days late, and sixteen were between 1 and 11
days late.

        Our review disclosed that the controls were not operating as designed. Only one
senior level official was notified by the Travel Accounting Supervisor of an overdue
travel voucher as required by the Manual.

         To comply with the policies and procedures regarding delinquent travel
vouchers, the Payroll/Travel Office implemented a report that, in addition to other
activities, would track delinquent travel vouchers. The Payroll/Travel Office Contract
Performance Measurement Report (Report) was developed in May 1998 but not
implemented until August 1998. As a test, we found that the Report for August and
September did not list any delinquent notices as being sent to any senior level officials.
However, we found that during this period a senior level official had a overdue travel
voucher that should had been reported.

        Overdue travel vouchers resulted from: (1) Non-compliance with PBGC Directive
requiring timely submission, and (2) Failure by the Payroll/Travel Office to comply with
the control procedures regarding written notification.

       We found that the accounting control problems identified in prior audits
continue to exist,1 therefore our recommendations are still pending.

                                    RECOMMENDATIONS

        We again recommend that PBGC implement the following corrective actions:

        Require senior level officials to comply with the PBGC directive regarding
        timely submission of travel vouchers. (FOD-270)

        Direct the Payroll/Travel Office to comply with policies and procedures
        regarding delinquent travel vouchers. (FOD-271)

        Review open travel authorizations regularly to ensure timely
        submission of travel vouchers. (FOD-272)




1 Review of Sensitive Payments for 1996, Audit Report 97-5, issued March 31, l997, and Review of
Sensitive Payments for 1997, Audit Report 98-4, issued March 31, l998.



                                                4
